<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


.                                    

                         [H.A.S.C. No. 116-26]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

    FISCAL YEAR 2020 PRIORITIES FOR NATIONAL SECURITY SPACE PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 3, 2019


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
                         Leonor Tomero, Counsel
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

          STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
  Subcommittee on Strategic Forces...............................     1
Turner, Hon. Michael R., a Representative from Ohio, Ranking 
  Member, Subcommittee on Strategic Forces.......................

                               WITNESSES

Chaplain, Cristina T., Director, Contracting and National 
  Security Acquisitions, U.S. Government Accountability Office...     4
Rapuano, Hon. Kenneth, Assistant Secretary of Defense for 
  Homeland Defense and Global Security, Department of Defense....     2
Raymond, Gen John W., USAF, Commander, Air Force Space Command...     3

                                APPENDIX

Prepared Statements:

    Chaplain, Cristina T.........................................    56
    Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
      Subcommittee on Strategic Forces...........................    25
    Rapuano, Hon. Kenneth........................................    28
    Raymond, Gen John W..........................................    39
    Turner, Hon. Michael R., a Representative from Ohio, Ranking 
      Member, Subcommittee on Strategic Forces...................    26

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    FISCAL YEAR 2020 PRIORITIES FOR NATIONAL SECURITY SPACE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Wednesday, April 3, 2019.
    The subcommittee met, pursuant to call, at 2:27 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.
    Ms. Horn [presiding]. Good afternoon. Welcome, everybody. 
Thank you for being here. Kendra Horn. I am sitting in for Mr. 
Cooper for a few moments. I would like to welcome the witnesses 
and thank you all for being here today.
    And I am going to offer Mr. Cooper's opening statement for 
the record. If you would like for me to share it, I am happy to 
do so, if you find that helpful. Otherwise, I will just submit 
it for the record.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 25.]
    Ms. Horn. And as the vice chair of this committee, I want 
to say that I am happy that you are all here today, eager to 
have this really critical conversation about the priorities and 
end posture for our national security space enterprise, which 
is clearly critical to our Nation's overall security in 
maintaining superiority in this space and look forward to your 
testimonies.
    And I don't--the ranking member is--Mr. Rogers.
    Mr. Rogers. Yeah.
    Ms. Horn. Yeah. There you are. I offer an opportunity for 
the ranking member to make a few comments as we begin.
    Mr. Rogers. I thank you. Thank the chair, vice chair.
    I appreciate our witnesses being here. This is a, as you 
know, a very important topic for our country. This is going to 
get a lot of attention this year in the NDAA [National Defense 
Authorization Act], as it should. We have put a lot of work 
into this. And it is going to be monumentally important for our 
Nation. This is very important stuff. And so I am glad the 
committee is taking it up. I look forward to working with you 
on it. And I yield back.
    Ms. Horn. Okay. All right. I will now turn it over to the 
witnesses to give their opening statements. You will each have 
5 minutes, and then of course your written statements will be 
submitted for the record.
    Mr. Rapuano.

   STATEMENT OF HON. KENNETH RAPUANO, ASSISTANT SECRETARY OF 
DEFENSE FOR HOMELAND DEFENSE AND GLOBAL SECURITY, DEPARTMENT OF 
                            DEFENSE

    Secretary Rapuano. Chairman Cooper, distinguished members 
of the subcommittee, it is a pleasure to--it is on. Sorry. It 
is a pleasure to appear before you along with General Raymond 
and Ms. Chaplain today.
    The U.S. is at a strategic inflection point in an era of 
renewed great power competition. Our reliance on space is at an 
all-time high and expanding. Our way of life and national 
defense rely on space, yet our posture was built for a 
permissive space environment. At the same time, potential 
adversary threats are also at an all-time high and expanding.
    China and Russia understand the essential role of space to 
our way of war. They see this reliance as our Achilles heel, 
and they are developing offensive military capabilities, 
doctrine, and organizations intended to place U.S. and allied 
space systems at risk.
    They are developing, testing, and fielding a full suite of 
antisatellite weapons, including ground-launched missiles and 
directed-energy weapons, and continue to launch experimental 
satellites that conduct sophisticated, on-orbit activities to 
counter space capabilities.
    I cannot emphasize enough how serious these challenges are. 
This is not about space for space's sake. This is about life 
here on Earth. Our national defense and the lives of our 
soldiers, sailors, airmen, and Marines rely on space. To be 
clear, we are currently ahead in space, but we are not postured 
for the emerging strategic environment we are facing and risk 
steadily losing our margin of advantage.
    Department of Defense space professionals are the best in 
the world, but we are not currently postured to maintain our 
comparative advantages in the emerging strategic environment. 
Our challenges stem from decentralized advocacy, fragmented 
responsibilities across multiple services and agencies, and 
nascent space warfighting doctrine capabilities and expertise.
    We have put considerable thought and analysis into studying 
the problem, and it is time for action, and we need your 
support. To compete, deter, and win in space is a complex, 
massive, and enduring undertaking; therefore, we must 
fundamentally change our approach to space from a key support 
function in a benign environment to space as a critical and 
contested warfighting domain.
    This requires changes in policies, strategies, capabilities 
and, yes, organization. A new armed force is foundational to 
our approach. Last month, the Department provided Congress with 
a legislative proposal for the establishment of the U.S. Space 
Force as a new branch of our Armed Forces.
    The U.S. Space Force will catalyze the transformation of 
space as a warfighting domain. It will provide the undivided 
attention, advocacy, and leadership necessary to develop the 
people, the doctrine, and the capabilities to maintain our 
unfettered access to and ability to fight and win in space. 
This will ensure continued U.S. dominance in space.
    We will also establish a combatant command, the United 
States Space Command, to focus joint warfighting in space. It 
will plan and conduct space operations to enhance deterrence 
and assure allies and partners and defeat threats to U.S. 
national interests. Essential to the success of USSPACECOM will 
be the doctrine, equipment, and trained personnel presented to 
it by the United States Space Force.
    The U.S. Space Force, Space Command, the Space Development 
Agency, and other vital reforms will put the U.S. on the right 
path to enhance deterrence in space. The Department greatly 
appreciates the work of this committee, the focus you have 
provided on national security space, and highlighting the need 
for a strategic paradigm shift and structural change.
    Thank you again, and I look forward to your questions 
today.
    [The prepared statement of Secretary Rapuano can be found 
in the Appendix on page 28.]
    Ms. Horn. Thank you very much.
    General Raymond.

 STATEMENT OF GEN JOHN W. RAYMOND, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Raymond. Congresswoman Horn, Congressman Rogers, 
members of the committee, distinguished members of the 
committee, I am absolutely honored to appear before you today. 
I think this is my third time as the Commander of Air Force 
Space Command. I appreciate your support. And on behalf of the 
26,200 men and women that make up Air Force Space Command--
simply the world's best--we thank you for your leadership.
    Today, consistent with our National Security Strategy and 
our National Defense Strategy, there is an unprecedented 
alignment that space is a warfighting domain just like air, 
land, and sea. While we have become comfortable declaring space 
as a warfighting domain, the implications of this declaration 
are significant and driving tremendous change.
    With your strong support, we have developed a strategy, 
resourced that strategy, and have made significant advances in 
the national security space enterprise. This fiscal year 2020 
budget builds on our efforts over the past 2 years and proposes 
a 17 percent increase in space funding over the previous fiscal 
year, in total a $14 billion investment.
    With my posture statement in the record, let me summarize 
just a few points, if I could. First of all, our primary focus 
is on enhancing lethality and readiness in this warfighting 
domain. We have invested in new, defendable architectures. We 
have invested in space situational awareness and command and 
control capabilities necessary to operate in a warfighting 
domain.
    We have funded training infrastructure to develop our joint 
space warfighters and the cadre that is so critical to our 
Nation's success. We have enhanced and expanded our 
partnerships with the intelligence community, our allies, and 
with commercial industry, to include nontraditional partners.
    And I would just, if I could, take a moment from the 
script. The last five times I have testified here I have had 
Betty Sapp at my side. And yesterday Betty Sapp retired as the 
Director of the NRO [National Reconnaissance Office]. And I 
will tell you, she has been a spectacular partner, and the work 
that we have done together has provided great advantage to our 
Nation. I am going to miss her.
    You will see, in these partnerships, we have enhanced our 
partnerships with the National Reconnaissance Office. It is the 
best we have ever been. And we have hosted payloads on allied 
partners' satellites, which is also a significant step forward.
    Finally, we have focused on capitalizing on innovative 
business practices. We have retooled the Space and Missile 
Systems Center, and it is something we call SMC-2.0. We have 
established, based on the recommendations of the NDAA last 
year, a space RCO [Rapid Capabilities Office] that is up and 
running at Kirtland Air Force Base. And we are adopting open 
architectures and standards to drive innovation across a 
broader commercial base, which has been so important to the 
space domain.
    Let me close by reiterating that we do not want a war to 
extend into space. Our mission is to deter that. But the best 
way to deter that is to be prepared to fight and win that war 
if deterrence were to fail, and we are.
    Thank you again for the opportunity to be here. I greatly 
appreciate it, and I really look forward to your questions. 
Thank you.
    [The prepared statement of General Raymond can be found in 
the Appendix on page 39.]
    Ms. Horn. Thank you, General.
    Ms. Chaplain, look forward to hearing from you.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, CONTRACTING AND 
NATIONAL SECURITY ACQUISITIONS, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Chaplain. Vice Chair Horn, Ranking Member Rogers, and 
members of the subcommittee, thank you for inviting me today to 
discuss DOD [Department of Defense] space programs.
    Space is at a pivotal point right now. In the face of 
growing threats and lengthy development cycles, DOD is 
embracing new approaches to help speed up the acquisition 
process, establish better partnerships with the commercial 
sector, and change its acquisition culture.
    There is also a proposal before Congress on strengthening 
leadership for space. Bringing about this broad span of change 
will be challenging to say the least and not without risk.
    More specifically, while DOD is undertaking this change, it 
will need to concurrently focus on completing older programs 
that are still struggling. The ground system for GPS [Global 
Positioning System], known as OCX [Next Generation Operation 
Control System], for example, is 5 years late. And while the 
contractor has improved the pace of building and testing 
software, we still see a lot of schedule risk.
    The Air Force also recently stopped development work on JMS 
[Joint Space Operations Center Mission System], a ground system 
for processing space situational awareness data, because it 
didn't deliver as expected. We are also still faced with long 
gaps between delivery of satellites and ground systems needed 
to make use of their capabilities.
    Moreover, there are a myriad of challenges facing space 
programs that are just getting underway. First, even with the 
new space proposal, there are still a lot of open questions 
about leadership. For example, at this time, it appears that 
there will be a number of space acquisition activities outside 
the Space Force, including the Missile Defense Agency, the NRO, 
and some military space service activities.
    But so far, it is uncertain what the overall governance 
structure for space will be. If there are conflicts in 
requirements, funding, or priorities between agencies that are 
not in the Space Force, who resolves them and makes a final 
decision?
    There is also a new entity being rolled out, the Space 
Development Agency [SDA], which has very worthwhile goals of 
adopting innovative technologies for space. But at this time, 
it is unclear how it will mesh with similar agencies, and also 
still unclear who is in charge of future architectures for 
space. These questions may well be resolved as details for the 
Space Force and SDA get worked out, but new programs will be 
operating with uncertainty for the time being.
    Second, while streamlining may help speed up space programs 
and change the culture, we know from past efforts to streamline 
space that there is also a risk of inviting programs to move 
too quickly and disregard the engineering and acquisition 
discipline that is so very important to space.
    Keep in mind that space is different than other types of 
weapons. You cannot easily fix satellites once they are in 
orbit. We consistently see programs suffer major setbacks 
because one quality procedure was not followed or one small 
flaw and one small part was not detected. This does not mean 
streamlining cannot be done or should not be done. It just 
means we should heed lessons from the past, maintain good 
insight, oversight, and expertise, and be prepared to cancel 
programs that falter.
    Third, there is a question about DOD's capacity to manage 
multiple new programs concurrently. Yes, there is a healthy 
increase being proposed for space, but consider at least nine 
significant programs are getting underway. They will likely 
require heavy investments upfront, and that DOD will also be 
seeking money for a new Space Force, for space protection, for 
new Space Development Agency, a new missile defense space 
layer, as well as priorities outside of space such as the 
nuclear triad.
    There are also questions about workforce capacity. We 
recently reported that just tracking who is in the space 
acquisition workforce is a challenge, and there are gaps in 
technical expertise that could be stretched with multiple new 
programs.
    Moreover, all these new programs will be software 
intensive, but DOD has challenges managing software. We 
recently found space software programs struggle to effectively 
engage system users, which is critical to their success. We 
understand many new programs are attempting to be more agile 
and to use more modern tools, but it remains to be seen how 
successful DOD can be in adopting these new ways.
    Again, good things are happening in space. There is 
attention from the highest levels of government, more 
resources, and a recognition that different approaches and 
cultures are needed. What is key to making them happen is not 
to lose focus on improving acquisition management and 
oversight, building capacity as we speed up programs, and 
continuing to reduce fragmentation.
    This concludes my statement, and I am happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain can be found in the 
Appendix on page 56.]
    Ms. Horn. Thank you. I appreciate all three of you being 
here today.
    And I am going to start with, I think, what is one of the 
obvious questions, and I know many of us on this committee and 
the committee as a whole have begun to address it, and that I 
think is alignment of our priorities and the realignment of 
space in the form of a Space Force or some other realignment, 
which it is clear, I think, to me and to, I would say, most of 
us or everyone on this committee certainly that space as a 
contested area is unquestionable and it is undoubted, and we 
have a lot of adversaries increasing their presence, their 
investment, and the work that they are doing in this arena so 
that we have to, I think, be smart about how we move forward.
    And I asked a couple of these questions to General Dunford 
the other day, and I think I want to hear from you today. And I 
am going to start with Space Force and how we structure that. 
And first of all, your sense of whether or not this is an 
alignment that needs to be--that needs to have a direct report 
up to the Joint Chiefs or what that looks like.
    And I would like to start, General Raymond, because you are 
currently there, with your sense of how this realignment would 
impact, and do you see the need for Joint Chiefs?
    General Raymond. Thank you.
    Let me first say that I fully support the standup of a 
Space Force underneath the Department of Air Force. I do so for 
several reasons: First of all, it will elevate space to the 
level of importance that it is for our--to our Nation and to 
our joint force; secondly, it will align and unify space 
activities that are currently spread out across the Department 
under one force; thirdly, it will provide a four-star that will 
come to work every day focused on that domain, which I think is 
really, really important; and then, finally, by putting the 
Space Force underneath the Department of the Air Force, we do 
so in a very efficient manner. And so, for all of those 
reasons, I think it is structured properly in the way the 
legislation--legislative proposal came forward, and I am 
supportive.
    Ms. Horn. Thank you.
    Mr. Rapuano.
    Secretary Rapuano. I agree wholeheartedly with General 
Raymond's response. I would simply add that, as a major 
warfighting domain, space is a vast, physical domain. It 
requires the time and attention and undivided focus of senior 
leadership in the Department in the form, consistent with our 
proposal, with the Chief of Staff of the Space Force who will 
be a member of the Joint Chiefs of Staff, as well as a vice, 
who will be the four-star vice to the Chief of Staff.
    It is that focused attention on the mission, and it is 
the--per the Goldwater-Nichols structure, it is that organize, 
train, and equip function that will present the trained 
personnel, the doctrine, and the expertise as well as the 
equipment in the form of the architecture to the U.S. Space 
Command, which will then leverage those capabilities in the 
day-to-day employment of the joint space forces.
    Ms. Horn. Thank you.
    Following on that a little bit, it is clear that we have 
some challenges with identifying acquisition development, 
development timelines as China, Russia, some of our other 
adversaries are beginning to put more time and resources into 
this domain that we need to streamline. And so I have a couple 
of questions following on the identification and the cost and/
or relative cost savings that this might impact.
    So, in the recent GAO [Government Accountability Office] 
report that looks at what we know about space, having it in so 
many different places across DOD, and I understand that the 
proposed Space Force plan would still have--we would still have 
some programs under the intelligence community umbrella.
    Setting that aside to a certain extent, the fact that we 
still have areas that we just don't know where acquisition is 
going and we are not quite clear on all of the workforce 
issues, General Raymond, I think I want to know what steps--as 
we put this plan into place but in the interim, what steps the 
DOD will be taking and Space Command will be taking to identify 
the number of acquisition personnel that are needed so that 
when we stand--when this is stood up or we do this realignment 
that we don't--you don't find ourselves in that same position.
    General Raymond. Yeah. So this committee has helped over 
the years just discuss how important it is that we reduce the 
timeline from requirements to acquisition, so we have to get 
this right.
    Today, we have rearchitected SMC-2.0, and we have elevated 
the stature of the human resource capital manager of that. Our 
personnel numbers at SMC today are the best it has ever been. 
They are about 85 percent manned. Our midlevel managers are the 
highest it has ever been as well and have pretty significant 
capability.
    One of the things that we are looking at and addressing is, 
there is about--I think in your report you mentioned about 
8,000 acquisition professionals that are dealing with space. 
And one of the things that we have studied over this past year 
and we are putting together an office to manage that broader 
enterprise look at acquisition officers spread out across the 
Department that have space expertise, and so we are going to 
put mechanisms in place to be able to track that and develop 
that towards the end of being able to move fast and deliver 
critical capabilities for our Nation.
    Ms. Horn. Following on that with space workforce 
development, and I have--I will have a question for you in just 
a moment about the GAO report, with the 2-year rotations 
occurring, 2-year rotations, do you see that the current 
structure as challenging to develop and retain the expertise in 
the DOD workforce in the space domain?
    General Raymond. I am pretty comfortable with our ability 
to develop expertise in the space domain. I think we have got a 
level of expertise that is greater than when I first got into 
this job, and I am comfortable. I think there is--you know, 
there is cost benefits. There is goodness of moving people as 
well to get different expertise and bringing in outside talent 
to help us, and so I am comfortable we have it about right.
    Ms. Horn. In the transition to a new architecture, do you 
think that would help to recruit and retain even if they are 
moving within Space Force but to develop and retain that 
expertise in a way that is more focused? And perhaps that is a 
better way that I could describe that question.
    General Raymond. Yeah. So I would tell the subcommittee, it 
is an exciting time to be in this business. There are a lot of 
people knocking on our doors wanting to come to work for us. It 
is really an exciting time, and we have had no problem 
recruiting talent to come our way.
    And I think the way we restructured SMC, it provides some 
opportunities to get people in, build that talent, and then 
actually, as you mentioned, move them around to different areas 
of expertise to help grow them for the future.
    Ms. Horn. Thank you.
    And one final question for you, Ms. Chaplain. Could you 
specify--you have summarized well the GAO report--the biggest 
area of challenge that you identified, specifically around the 
lack of knowledge about where all of the acquisition pieces are 
that you found in your GAO report.
    Ms. Chaplain. Yeah. I would like to say it is not just 
unique to space. The way DOD tracks its acquisition 
professionals in general focuses on certain skill sets like 
program managers, engineers, and not necessarily the mission 
area or platforms that they work on. So we found that DOD 
couldn't really tell us who was in the space acquisition 
workforce because of the way their systems track.
    But it is a good idea to maybe change the system so that 
you can track at least for space. If you are talking about 
bringing together organizations, you want to know who is out 
there to draw on. And then it would help you do more analysis 
in terms of types of expertise that you might need more of, 
which I think has been an issue for a long time.
    Ms. Horn. Thank you, all.
    We have been joined by our chairman. I want to thank you 
all, the witnesses, for your testimony and questions, and I 
will turn it over to Chairman Cooper.
    Mr. Cooper [presiding]. Sounds like you were doing a great 
job. I am happy for you to stay there, if you would like.
    Who is the next questioner? I don't want to interfere in 
the line of questioning. Mr. Rogers, I would be honored to 
recognize my friend from Alabama.
    Mr. Rogers. I thank my friend from Tennessee.
    This is great stuff. Something that Mr. Rapuano said a few 
minutes ago I think this committee should be sure and take note 
of. You know, General Raymond listed some of the significant 
impacts of having a separate Space Force. But the fact that we 
are going to have a four-star Chief of Staff and a four-star 
vice chief of--no, not chief--yeah, General Hyten, two space 
professionals in the tank advocating for space is huge as we 
try to have a new service.
    You know, one of the problems that we found with this 
committee is that space was being starved in the Air Force. It 
is not going to be starved anymore under this new construct, 
and it is going to get the kind of resources we need to be 
successful. So I am excited about that, and I want everybody to 
take note of that because that is a big deal in this 
organizational structure.
    I also want to note, Ms. Chaplain did the work that helped 
focus this committee on this. A lot of folks in the government 
don't get the attention they ought to get, but she ought to be 
recognized for the hard work she did in helping me and Jim 
Cooper and the rest of this committee recognize the foundation 
that had been laid by the Rumsfeld Commission, Allard 
Commission, several reports that her office had done. This 
Space Force idea did not come up out of me and Jim Cooper. It 
came through the work of those commissions and the GAO studies, 
and I appreciate what you have done.
    To that point, Ms. Chaplain, looking back over the last 30 
years at the Rumsfeld Commission, the studies you have done, 
the Allard Commission, what do you think--where do you think we 
are now given what they were saying we needed to be doing? Are 
we following through on the path that they pointed us toward?
    Ms. Chaplain. I think we are. We have had a lot of attempts 
since those commissions to do things, but they were mostly on 
the edges, or they were reforms that didn't work very long. And 
now we have something before us that can make lasting change, 
which is one of the important ingredients that those 
commissions brought out. Some of them envisioned even more 
dramatic changes that are being proposed right now. They 
envisioned an independent Space Force.
    And one of the commissions that was done under this 
committee also envisioned a giant national space security 
organization that would include the NRO. But they all also 
admitted that maybe you need these interim steps in between.
    Mr. Rogers. Exactly.
    Ms. Chaplain. And I think that is where we are now is the 
interim step.
    Mr. Rogers. Yeah. Back a few minutes ago I was trying to 
refer to the term ``vice chairman'' talking about General 
Hyten. And that is when he suggested to this committee in 
briefings is that this is an evolutionary process. We don't 
have to go from where we are now without a Space Force to this 
full-blown construct that has all the IC [intelligence 
community] in it and in a separate department. Just like the 
Air Force didn't evolve out of the Army to be what it is today; 
it went through iterations, and that is what I envision here.
    Ms. Chaplain in her opening statement, General Raymond, 
made reference to some confusion about the role of SMC versus 
Space Development Agency. And you made some reference to it. 
How do you see those two working--in my view, I don't know why 
we would need an SMC once we have a full-blown Space 
Development Agency. So tell me how you see that working out.
    General Raymond. First of all, I don't think there is any 
argument at all that we have to get faster.
    Mr. Rogers. Yeah.
    General Raymond. And we have talked about this for years. 
The time from requirement to capability has to get shortened. 
And so, with the help of this committee and with Congress last 
year, we, for example, stood up a Space Rapid Capabilities 
Office to get after that. We have rearchitected the Space and 
Missile Systems Center to get after that. We have had 
partnerships with the Air Force RCO. We have had partnerships 
with the NRO, and it is all in my written statement.
    So everybody is moving out fast to work to shorten that 
timeline. And I think that is a national imperative. The Space 
Development Agency is doing the same thing, and I--that there 
is all goodness in what we say that they are going to do. The 
details of that, as I understand, are still being worked.
    And so what we are going to have to do is I am going to 
have to--and I look forward to working with Dr. Griffin as we 
go forward to make sure that these are synchronized activities 
and not competing, and I think we can do that.
    Mr. Rogers. Great. In talking with my friend Chairman 
Cooper about this and others, we are a little concerned that 
the proposal that came over from the Defense Department has 
some cross-jurisdictional problems that need to be cleaned up.
    We want to make sure you understand that, while we want and 
expect and are determined to see the standing up of a separate 
Space Force, the version--the proposal that you all sent us is 
not going to be the final product because we are going to have 
to clean up some of those things.
    Just from a legislative standpoint, this committee, meaning 
the HASC, the House Armed Services Committee, and our 
counterpart on the Senate side should be the committee that 
decides this, and I think you are going to see some changes 
made.
    And I hope you understand this is a process. You all make 
proposals. We make--come back--counter proposals, and we get to 
a place where we have something good. But I do want you to know 
we see some pretty glaring problems that are going to have to 
be cleaned up in that proposal.
    And, with that, I thank the chairman for the time, and I 
yield back.
    Mr. Cooper. I thank the gentleman from Alabama.
    Let me ask unanimous consent that the members of the full 
committee, such as Mr. Lamborn, be able to ask questions at the 
end of subcommittee questioning.
    Hearing no objection, that will be approved.
    Next questioner will be Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you for being here.
    Mr. Rapuano and General Raymond, I think it is pretty 
clear, I am sure to all of us in the room, where you stand on 
this now. I appreciate that. And yet I am also wondering, you 
know, from an outside perspective, where you think there is 
some redundancy.
    I mean, from an outsider, Space Force, Space Command, new 
Space Development Agency sort of sounds like, do we have to do 
all that? And yet some redundancy is always good. Some of it is 
probably over the top. What----
    General Raymond. I think--thank you for the question.
    I think if you go back to Goldwater-Nichols back in the 
1980s, it was kind of two functions that were laid out. One 
function is an organize, train, and equip function and that is 
the function of services. The other function is a warfighting 
function, and that is the function of combatant commands.
    And so they actually have two different roles. So, if you 
look at the proposals being talked about with the Space Force 
and the combatant command, the Space Force would provide 
organized, trained, and equipped professionals to U.S. Space 
Command to be able to employ. So there is actually two 
different functions, and it works--it has been working very 
well since the 1980s.
    Mrs. Davis. Did you want to comment, Mr. Rapuano?
    Secretary Rapuano. I would just add to General Raymond's 
response that it really is fundamental to the way that the 
Department of Defense operates with regard to how do we 
organize, man, train, and equip for warfighting domains. And 
having the undivided attention of a dedicated service with 
senior leadership who are only thinking about space has been 
one of the missing pieces.
    And if you look at the studies all the way back to 
Rumsfeld, that is a consistent theme, is the disaggregation and 
the lack of elevation associated with space. And that is why 
the Space Force, from our perspective, is such a fundamental 
component.
    Mrs. Davis. Thank you. And yet it has taken us a while to 
get there.
    Secretary Rapuano. Yes, it has.
    Mrs. Davis. Yeah.
    Ms. Chaplain, I know you spoke about that the DOD is not 
able to track professionals in the same way. But where do you 
come in on this then when it comes to the professionals 
themselves and whether or not we are able to--you suggested 
maybe we need to have a different kind of system for doing 
that, a different kind of analysis for where people should be 
in their--those pathways.
    Ms. Chaplain. You know, when I was talking about a 
different system, I actually meant the IT [information 
technology] system that tracks acquisition professionals. But 
one issue that has been pertinent to space for a long time is 
maintaining and increasing expertise in certain areas. And if 
you are going to move to the Space Force construct, it is a 
good opportunity to really look at your workforce and see the 
types of professionals you need.
    It was mentioned just earlier about 2-year rotations for 
programs in terms of officers managing them. The best practice 
is actually to have longer tenures and people maybe even on the 
civilian side, more of them so that you can really develop that 
deep expertise. I think that is something the NRO has been 
trying to do over the past few years and has been pretty 
successful. So I think there are things we can do for the space 
acquisition workforce now that we have an opportunity to do.
    Mrs. Davis. Do we risk some protective measures for our 
workforce in enabling these kinds--the establishment of the 
Space Force? I mean, are there some things that, down the road, 
that we suspend and that come back and bite us later on?
    Ms. Chaplain. There is a big question, I think, in terms of 
where your committee has had is on the authorities being 
proposed for the Space Force under the DOD proposal. It is an 
area I don't know too much about, but there are some 
authorities that other intelligence agencies have that I think 
were envisioned for this, that people have concerns about. But 
it is an area worth exploring.
    Mrs. Davis. So maybe it is worth looking at, yeah.
    And to all of you, I just have a few seconds, what 
challenges does the Department of Defense face that threaten 
the improvement of cybersecurity of our weapons systems, any 
one high-priority concern?
    Secretary Rapuano. So really what we have been focusing on 
in the last 2 years has been integrated approach to cyber 
throughout the Department and a systemic approach to 
understanding vulnerabilities, and that is of currently 
deployed capabilities as well as the full life cycle from birth 
associated with how do we bake in cyber resilience and security 
from the very beginning. And they are two very different 
challenges, but we have to do both particularly for our more 
critical systems.
    Mrs. Davis. And when it comes to our work with our allies 
with NATO, do they share the same concerns?
    Secretary Rapuano. They do.
    Mrs. Davis. Thank you very much.
    Mr. Cooper. I thank the gentlelady.
    Mr. Brooks from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    Assistant Secretary Rapuano, according to the Space Force 
proposal, quote, as necessary, Department of Defense components 
may retain organic space capabilities uniquely required to 
support the core mission of that military service or defense 
agency, end quote.
    Can you please describe and elaborate on what happens to 
Army Space and Missile Defense Command, the Navy Space and 
Naval War Systems Command, and the community involved with user 
equipment under the Department of Defense's Space Force 
proposal?
    Secretary Rapuano. So, again, per that guidance, the 
organic capabilities within a service that are necessary for 
the execution of their missions will stay within the service. 
Those capabilities that are global and pertain to beyond the 
unique mission of the service, for example, global GPS, global 
comms, they will go to the Space Force.
    Mr. Brooks. Second question, and first, background, as you 
may know, Redstone Arsenal has a long history in commercial 
military and even adversary space capability development and 
analysis.
    To give just a few examples, Army organizations at Redstone 
Arsenal are currently developing a space layered sensor suite 
for the ballistic missile defense system and low-Earth orbit 
communications and imagery satellites to support the tactical 
warfighter.
    The Department of Defense's fiscal year 2020 budget request 
seeks approximately $105 million in research, development, 
testing, and evaluation funding, and approximately $44 million 
in operations and maintenance funding for the Space Development 
Agency.
    What is the expected impact of this funding to present 
space capability development providers, and how is the Space 
Development Agency expected to leverage the expertise that 
already exists at places like Redstone Arsenal?
    Secretary Rapuano. So the intent of the Space Development 
Agency is not to replace or displace existing institutions 
working on space development and acquisition. It really is to 
augment and complement. This is a growing field, as you are 
well aware, just from the budget numbers including this year's.
    We see the need for more of these capabilities, and we 
simply want to ensure that they are working in an integrated 
way to achieve strategic outcomes. So we don't see these 
current capabilities or institutions or facilities being 
replaced or moved as a general proposition.
    Mr. Brooks. And final issue, last week India conducted an 
antisatellite test. Can any of you speak to the dangers of such 
tests--this is for the whole panel--particularly the problems 
that can be caused by space debris created by antisatellite 
tests?
    Secretary Rapuano. Well, let me just take a start, and then 
I will hand it over to General Raymond. We, as the lead 
spacefaring nation in the world, have a lot invested in the 
ability to safely conduct space operations, and debris is a 
significant concern. So we certainly have consistently favored 
minimizing potential for debris.
    We, of course, are the stewards of the space traffic 
management as well as space awareness, and we facilitate those 
kinds of safety measures throughout space. So we work with our 
allies and partners as well, who have--share the same 
understanding and priority with regard to the space debris 
example.
    General Raymond. Yes. We are aware that that was going to 
happen. We immediately detected the launch. We immediately 
detected the successful intercept. We started tracking pieces 
of debris. Today we are tracking about 270 pieces of debris.
    We act as the space traffic control for the world. We do 
all the analysis to determine if any two objects in space are 
going to collide, and then we provide warning. We take great 
care in providing that warning to the world, and we also take 
great care in making sure that the astronauts on the 
International Space Station are safe.
    Mr. Brooks. If I understand correctly, you stated that you 
were aware that it was going to happen. Was there anything done 
to discourage India from creating so much space debris?
    Secretary Rapuano. We have expressed concerns to all our 
partners and allies with regard to debris and looking to 
minimize debris to the maximum extent possible.
    Mr. Brooks. Are we pretty much limited to tracking this 
debris and trying to avoid collisions thereafter, or is there 
anything that can be done about the debris that is already up 
in space?
    General Raymond. There is not a lot today that can be done 
about the debris problem that we face in space. We track about 
23,000 objects. The way that we tackle that problem is to quit 
creating debris in the first place, until we provide that 
warning for the world, to keep the domain safe for all.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Cooper. I thank the gentleman.
    Now the gentleman from California, Mr. Carbajal, is 
recognized.
    Mr. Carbajal. Thank you, Mr. Chairman.
    General Raymond, how would you describe the Air Force's 
progress towards ending reliance upon the RD-180?
    General Raymond. The Air Force has a three-prong launch 
strategy. First and foremost, we must have assured access to 
space. That is critical, critical to our Nation. In fact, it is 
a vital national interest, as articulated in the National 
Security Strategy. The second thing we want to do is increase 
competition. And the third thing, as mandated by law, we are to 
get off the RD-180 engine.
    Our launch strategy is working on all of those fronts. We 
have had 76 for 76 successful launches. We have had a 24 
percent reduction in launch costs since 2012, and we are on 
track to get off the RD-180 engine by the statutory limits.
    Mr. Carbajal. When you say ``statutory limits,'' you mean 
fiscal year 2019?
    General Raymond. The law describes not procuring any more 
additional engines past fiscal year 2022.
    Mr. Carbajal. 2022. Thank you.
    What are the risks if this is delayed since the Air Force 
has asked for backup options in the case of delay?
    General Raymond. I am not--I am sorry. Can you clarify the 
question for me?
    Mr. Carbajal. If we don't meet that deadline, it is my 
understanding the Air Force has asked--is considering options 
in case we are not able to meet that statutory deadline.
    General Raymond. We are going to meet the statutory 
deadline.
    Mr. Carbajal. Great. Well, that is good to hear.
    General Raymond, how are you ensuring that all companies 
that are able to compete for phase 2 of the launch services 
acquisition are able to and are on a level playing field?
    General Raymond. It is critical, absolutely critical that 
we have fair and equitable competition, and, again, that is the 
second prong of our strategy. I am very comfortable with where 
we stand today, that we have that fair and equitable 
competition, that we have--we now have companies that are 
mature enough to be able to launch the full spectrum of 
launches that the United States military requires. And I am 
very comfortable going forward with our strategy.
    Mr. Carbajal. Not to be redundant, but are the risks that 
the LSA [Launch Service Agreement] approach down-selecting to 
two providers will exclude competitors for at least 5 years, 
what are you doing to ensure we retain competition?
    General Raymond. Again, competition is critical to our 
strategy. It is a little bit of a nuance. It is not a down-
select from--to two. We are having a full and open competition 
for two, and so everybody can compete for that. We are 
comfortable that there is companies that--many companies that 
can compete and win that. We think that the playing field is 
level.
    And if you look at the manifests that are projected over 
the next 5 years, the manifests really support two companies, 
and so we think we are on the--on firm and solid footing on 
this strategy.
    Mr. Carbajal. Thank you, General.
    Ms. Chaplain, what are your recommendations on ensuring 
fair and open competition for launch?
    Ms. Chaplain. We have not had recent work on EELV [Evolved 
Expendable Launch Vehicle] or the new launch program, but we 
have always been very much of a proponent of ensuring 
competition to the extent you can. And I do believe General 
Raymond is right that the manifest for phase 2, that there 
won't be quite the demand from DOD to support three providers, 
but there has been a concern that those--some of the providers 
getting money now as part of technology maturation efforts 
won't be able to be a player for that period of time.
    It is difficult to keep competition in launch. You are 
always at risk of maybe losing competition because one of the 
companies may not be able to stay in business. So it is--to the 
extent that you can keep other players in the game, it is 
beneficial.
    Mr. Carbajal. Thank you.
    General Raymond, General Hyten has noted that, quote, I 
will not support buying big satellites and make juicy targets--
that make juicy targets, end quote. However, in replacing the 
missile warning satellites, the Air Force is investing billions 
of dollars on a similar architecture of a handful of 
satellites.
    What are you doing to complicate the adversary's incentive 
to target these satellites, for example, investing in a 
disaggregated architecture and taking advantage of hosted 
payload opportunities?
    General Raymond. Let me just say that General Hyten is a 
good friend, and we are in great alignment on this topic. There 
are lots of things that we are doing to enhance the resiliency 
of our architectures, and what I would like to do, if possible, 
is take that conversation and the specifics in a classified 
hearing. But let me give you some top bullets.
    We are focusing on, again, having more defendable 
architectures. We are developing tactics, techniques, and 
procedures to be able to respond to threats and be able to 
fight through threats. We are working hard to develop the joint 
space warfighters that can operate successfully in a contested 
domain.
    And then, finally, we are also expanding our--and enhancing 
our partnerships with our allies in commercial industry and 
intelligence community. And this budget, for example, we are 
placing a couple payloads on allied satellites to, again, do 
some more dispersal. So there is a long strategy, and I will go 
into more specifics in a classified hearing. Thank you.
    Mr. Carbajal. Thank you, General.
    I yield back.
    Mr. Cooper. I thank the gentleman.
    And now yet another gentleman from Alabama, Mr. Byrne.
    Mr. Byrne. It is Alabama day on the subcommittee.
    General, I want to go back to the launch vehicle issue, if 
you don't mind. To what extent will the new launch vehicle 
prototypes DOD is investing in be ready by the time they are 
needed, and can you talk about the technical risks and how they 
are being mitigated?
    General Raymond. We are working very closely, Congressman, 
with those companies, as you would expect. We are very 
comfortable with the level of maturity where they are. We are 
comfortable what their plans of what they have to do here over 
the next year and are confident, completely confident that they 
will be ready to execute our missions when it is time.
    Mr. Byrne. Okay. And how do you balance mission assurance 
and innovative technology development of space launch?
    General Raymond. You know, I have been in the space launch 
business for a long time, and I was in the space launch 
business on a staff back in the 1990s when we didn't have a lot 
of success. We were blowing up significant amount of rockets, 
and we have taken great, great care in turning that around.
    And as I talked about in my opening statement, we are 76 
for 76, and every launch is a new launch that we are focused 
on. There is room for innovation. I think the way you do that 
innovation is you have a close partnership and relationship 
with the folks that are innovating, and we enjoy that today.
    And there are some innovative things that are happening. 
For example, this year we are going to use reusable boosters 
for the first time. So there is room for innovation. We work 
side by side. We make sure that we do it smartly and that we 
are 77 for 77 and 78 for 78.
    Mr. Byrne. Good.
    Mr. Secretary, I wanted to first congratulate you and the 
administration. You are the first administration to recognize 
space as a warfighting domain, and that in and of itself was a 
big step forward.
    But try to give me a little more general sense--I know 
there are some things you can't tell me in a nonclassified 
setting, but can you describe what our adversaries are doing or 
have the capability of doing in space and compare and contrast 
that with us?
    And, General, if you need to jump in, that would be good 
too.
    Secretary Rapuano. Yes. I can certainly go into greater 
details in the closed session. But really since the Gulf war, 
our principal potential adversaries have been extremely focused 
on the enablers that have provided a wide range of highly 
exquisite capabilities to the United States military in terms 
of targeting, positioning, locationing, communications. The 
list does go on.
    And they have been very focused, and the Chinese in 
particular have made massive investments in their space 
capabilities, and they are developing counterspace capabilities 
and deploying those capabilities.
    They are looking to denigrate our advantage that we have in 
terms of our space-based capabilities and enabling functions. 
So we are very mindful of that. And this really is what forced 
the transition of understanding of space versus an enabling 
zone for capabilities as a warfighting domain.
    And the architecture that we have right now was not 
designed for a nonpermissive environment. So that is where we 
are focused. That is where we have a sense of urgency with 
regard to how do we accelerate these capabilities, how do we 
better organize and equip. And, ergo, the organizational 
structuring, in terms of having that center of gravity, 
institutionalizing the advocacy of space, the development of 
doctrine, the training of personnel, is critical to being able 
to present that force to the combatant command that will then 
be operating the joint space forces on a daily basis.
    Mr. Byrne. General, do you want to add anything to that?
    General Raymond. I agree with all that. I would just say 
that--and kind of as a teaser for the classified session. At an 
unclassified level, I would say that, you know, there is a 
spectrum of activity that we are concerned about, everything 
from low-end reversible jamming of communication satellites and 
GPS satellites, for example, all the way up to a high-end 
direct-ascent ASAT as demonstrated in 2007. And I can give you 
the specifics on that spectrum at a classified hearing.
    Mr. Byrne. Thank you. I yield back.
    Mr. Cooper. The gentleman from California is recognized.
    Mr. Garamendi. Just a couple of things. I was going through 
the suggested questions by the staff. Extraordinary set of 
questions, most of which are not going to be able to be 
answered in this setting, and I would recommend that they be 
answered for the record because they are--each and every one of 
them are very, very important. Maybe 20 percent of them have 
actually--are going to be able to be asked here, so I would ask 
that.
    The second thing really has to do with the Space Force 
itself. I have been going back and forth on that. I have been 
trying to visually see how this thing works. And here we are 
with a year in which we are supposed to make a decision, and 
there is no organization chart. Presumably you have one. If it 
is a secret, maybe we can get it in the next session, in the 
secret session. If so, I would probably ask, why is it secret?
    We heard that from one of our--my colleagues that there is 
this Redstone facility. Each of the services have their own 
space programs. How are those to be integrated into this Space 
Force, or are they going to be kept separate, as you indicated 
the Redstone situation would continue to be separate?
    Secretary Rapuano. As I noted, those capabilities that are 
unique to the organic mission of the service will stay under 
the service. The global or joint capabilities will fleet up 
under the Space Force. So that is a process that will--in terms 
of the details of where these delineations are made, will be 
taking place going forward. But if you have, for example, a 
global communications system run by one service, that set of 
capabilities and that responsibility would revert to the Space 
Force so it can be leveraged for the entire----
    Mr. Garamendi. So could you give an example of a service 
that has such a global communications system and it would be 
transferred from whatever service that was to the Space Force?
    Secretary Rapuano. I don't have the details, but I believe 
the Navy has a global SATCOMs [satellite communications]. 
General Raymond probably----
    Mr. Garamendi. And so you think they maybe might be willing 
to transfer that to the Air Force. That will be an interesting 
switch. We have seen some turfing examples in the past. This 
entire thing is fraught with turf.
    Secretary Rapuano. That is really the very point of 
institutionalizing space, the warfighting domain, and the 
development of the organize, train, and equip function in a 
service model because of the disaggregated approach that we 
have taken, and, again, that was in an era where space was not 
contested. It was not a warfighting domain.
    So the focus was on maximum enablement of service 
warfighting mission capabilities. You didn't need as much of 
that integrated approach where you are looking at an 
architecture in space that is resilient and that which we can 
defend or reconstitute rapidly in a conflict.
    Mr. Garamendi. I am going to really wait until the 
classified section. I just draw my final point to the questions 
that have been raised by the chairman. Seven-year unlimited 
authority to transfer funds from here to there and everywhere, 
really think that is going to happen? And why would it be 
necessary to happen?
    Secretary Rapuano. We are looking forward to working with 
Congress on----
    Mr. Garamendi. Given what the Department of Defense and the 
administration is doing with transfers right now, like the Air 
Force has endured two strategic bases, one I think you are 
familiar with, General Raymond, Offutt and Tyndall, maybe $6 
billion, $7 billion of repair of those bases. And the 
Department of Defense has transferred $1 billion that was 
unused by the Army to the counternarcotics so that they could 
build a couple of walls someplace. What in the hell is the 
priority here? Is it to rebuild Tyndall or maybe Offutt, or is 
it to build 100 miles of fence?
    Mr. Rapuano, what is the priority at the Department?
    Secretary Rapuano. Well, we have multiple priorities.
    Mr. Garamendi. No, that is not the question. Okay. What are 
the priorities? What are the multiple priorities?
    Secretary Rapuano. We have readiness priorities, and we 
have priorities when it comes to responding to lawful direction 
with regard to other national security priorities of the 
Nation.
    Mr. Garamendi. So would you classify a fence in El Paso as 
more important than getting Offutt, the home of STRATCOM, up 
and running?
    Secretary Rapuano. I am not in a position to make that 
trade, Congressman.
    Mr. Garamendi. I asked you not for the trade, but what is 
your priority? What is your advice?
    Secretary Rapuano. The Department's priority is to respond 
to lawful direction when the priorities are coming from above.
    Mr. Garamendi. From whom? Lawful direction from whom? From 
the President?
    Secretary Rapuano. From the President with regards to 
barrier.
    Mr. Garamendi. Who decides that that wall is more important 
than getting Tyndall Air Force Base back up and operating, 
which is a key base, and STRATCOM, a key base? A fence is more 
important? I think not. I yield back.
    Mr. Cooper. I thank the gentleman.
    And now the gentleman from Colorado, the patient gentleman 
from Colorado.
    Mr. Lamborn. Well, thank you, Mr. Chairman. Thank you for 
having this hearing.
    And in response to the last set of questions, I will just 
say that I believe our military has the capability to walk and 
chew gum at the same time. I think we can handle multiple 
priorities simultaneously and do them right and do them well.
    General Raymond, I was so pleased to see you nominated to 
be the first Commander of the reactivated U.S. Space Command. 
We in Colorado Springs are very proud of you, and I am very 
excited about what it means to our Nation to have such a 
dedicated leader and experienced warfighter overseeing the 
pointed end of the spear.
    As you know, it is my great honor to represent the airmen 
of Air Force Space Command and so many of our space 
warfighters. As we move forward into plans to establish U.S. 
Space Command, can you describe for us relative to the threat 
of our near-peer adversaries that they pose to our space 
assets, why is it important that we act now without delay?
    General Raymond. First of all, thank you. I am honored to 
be nominated. And it is just that, a nomination, and there are 
still things that have to happen.
    And I will just tell you from an Air Force Space Command 
point of view, it is really critical that we embrace that space 
is a warfighting domain. Everything that we do in space, 
everything that we do as a joint force is enabled by space, 
everything. There is not--you can't come up with anything that 
we do as a joint force that isn't.
    And it is very important that we have the ability to 
protect and defend those capabilities so the sailors, soldiers, 
airmen, and Marines that have come to rely on those always have 
them. It is like the light switch that you turn on. It is 
always on. That is our job.
    Mr. Lamborn. Thank you.
    Now, in the context of warfighting, what does warfighting 
in space--what does readiness mean?
    General Raymond. So I don't consider it warfighting in 
space. I consider it just warfighting. It is just a war. And it 
is not just--I don't want to--that came out wrong. It is war, 
and it is important, but it is an event that a country can 
choose to fight it on the land, they can choose to fight it in 
the sea, they can choose to fight it in space or in the air. 
And so it is just another domain of where military activity--
military activity occurs.
    What we call for that is to make sure that we have the 
ability to protect and defend those critical satellites and 
those critical capabilities to make sure that our forces and 
our Nation and our coalition and allied partners always have 
those capabilities and to be able to hold our adversaries at 
risk. We want to deter this. This is all about deterrence, and 
the way you deter is you change that calculus.
    Mr. Lamborn. Thank you.
    And now I am going to drill down and ask a couple of really 
specific questions. After spending $500 million in years of 
development, GAO recently reported that operational testing in 
2018 found that the Joint Space Operations Center Mission 
System Increment 2--that is a mouthful--was not operationally 
effective or suitable.
    I understand that future increments have been canceled, and 
now that they are--now that there is a new program called Space 
C2, which is supposed to be using agile software development to 
deliver capabilities to the warfighters every 90 days, how will 
this be structured to succeed where JMS failed?
    General Raymond. First of all, thanks for the question.
    You know, any commander that is responsible for operations 
in any domain has a couple must-haves. You have to have the 
ability to have awareness of the domain that you are operating 
in, and you have to have the ability to command and control 
capabilities.
    This C2 system that you talked about, our new program, is 
that system for space. Of all the things that I have submitted 
to the record in my report, this is the program that has my 
highest attention. I meet on this at least monthly.
    The way we are doing this that is different, completely 
different than what we did with JMS, first of all, we started 
with a prototype, and we had the Air Force RCO develop a 
prototype of this capability because they had already built a 
similar prototype. So we are using leveraging work that had 
already been done in another domain.
    We have developed open standards, called OMS [Open Mission 
Systems] and UCI [Universal Command and Control Interface], 
that will allow companies to innovate to meet those standards 
and will allow multidomain integration. We have built industry 
consortium to make sure we have the industry's voice in this 
program with us.
    We are building this to be coalition friendly from the 
front because, just like in any other conflict, we expect that 
we will partner with our coalition and our allies. We have 
developed a data library so we can--a cloud-based data library, 
if you will, so we can ingest more data, including commercial, 
intelligence, and DOD data.
    And then, finally, and probably most importantly is that we 
are adopting agile software--best practices in agile software 
development. It is not good enough to take 5 years to develop 
software and then test it and see if it works. We are doing it 
in much quicker sprints, 90-day sprints, and we are already 
getting the capability delivered to the floor.
    Mr. Lamborn. Thank you.
    Mr. Chairman, I still have questions on COMSATCOM 
[commercial satellite communications], overhead persistent 
infrared system, and weather satellites, but I will save those 
for the classified session.
    Mr. Cooper. I thank the gentleman for his questions.
    I hope that as many members as possible can join us in HVC-
301 [House Visitors Center room 301] for the classified 
session.
    Let me ask unanimous consent that the ranking member's 
opening statement be inserted for the record.
    Hearing no objection, so done.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 26.]
    Mr. Cooper. So this subcommittee hearing is adjourned, and 
let's move in the next 10 minutes to the classified session. 
Thank you.
    [Whereupon, at 3:30 p.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================


                            A P P E N D I X

                             April 3, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 3, 2019

=======================================================================
      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre></body></html>
